<html>
<title> - HONORING THE TUNISIAN PEOPLE FOR THEIR DEMOCRATIC TRANSITION; AND EXPRESSING CONCERN OVER ANTI-ISRAEL AND ANTI-SEMITIC INCITEMENT WITHIN THE PALESTINIAN AUTHORITY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
               HONORING THE TUNISIAN PEOPLE FOR THEIR DEMOCRATIC
              TRANSITION; AND EXPRESSING CONCERN OVER ANTI-ISRAEL
                 AND ANTI-SEMITIC INCITEMENT WITHIN THE
                         PALESTINIAN AUTHORITY

=======================================================================

                                 MARKUP

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                      H. Res. 277 and H. Res. 293

                               __________

                           SEPTEMBER 17, 2015

                               __________

                           Serial No. 114-91

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 _________
                                 
                                 
                      U.S. GOVERNMENT PUBLISHING OFFICE
96-146PDF                     WASHINGTON : 2015                      
                                 
                                 
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3b5c4b547b584e484f535e574b1558545615">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H. Res. 277, Honoring the Tunisian People for their democratic 
  transition.....................................................     2
  Amendment in the nature of a substitute to H. Res. 277 offered 
    by the Honorable Ileana Ros-Lehtinen, a Representative in 
    Congress from the State of Florida, and chairman, 
    Subcommittee on the Middle East and North Africa.............     5
H. Res. 293, Expressing concern over anti-Israel and anti-Semitic 
  incitement within the Palestinian Authority....................     8
  Amendment in the nature of a substitute to H. Res. 293 offered 
    by the Honorable Ileana Ros-Lehtinen.........................    13

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD
                                APPENDIX

Markup notice....................................................    24
Markup minutes...................................................    25
Markup summary...................................................    26
                 HONORING THE TUNISIAN PEOPLE FOR THEIR

             DEMOCRATIC TRANSITION; AND EXPRESSING CONCERN

              OVER ANTI-ISRAEL AND ANTI-SEMITIC INCITEMENT

                    WITHIN THE PALESTINIAN AUTHORITY

                              ----------                              


                      THURSDAY, SEPTEMBER 17, 2015

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 1:55 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms.  Ros-Lehtinen. The subcommittee will come to order. We 
meet pursuant to notice to mark up two bipartisan resolutions. 
As your offices were previously notified, it is the intent of 
the Chair to consider the following items en bloc which members 
have before them: House Resolution 277, honoring the Tunisian 
people for their democratic transition; the Ros-Lehtinen 
amendment in the nature of a substitute to House Resolution 
277, which was provided to your offices yesterday; House 
Resolution 293, expressing concern over anti-Israel and anti-
Semitic incitement within the Palestinian Authority; and a Ros-
Lehtinen amendment in the nature of a substitute to H. Res. 
293, which was also provided to your offices yesterday. Without 
objection, these items are considered as read, and will be 
considered en bloc.
    [The information referred to follows:]<greek-l>H. Res. 
277 deg.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms.  Ros-Lehtinen. After the ranking member and I speak on 
these measures, I will be glad to recognize any other members 
seeking recognition. Without objection, all members may have 5 
days to submit statements for the record on today's business.
    Nearly 5 years ago, the Tunisian people sparked a wave 
across the Middle East and North Africa called the Arab Spring, 
that the world hoped would be the catalyst to end authoritarian 
rule in the region and usher in a new era of democracy. Today, 
the people of Tunisia are firmly going down the path toward 
democracy, as we have seen them reach multiple milestones. We 
know that elections alone do not make a democracy, and that 
establishing a new democracy is a long road. But today, I am 
even more optimistic for Tunisia's democratic prospects.
    The people of Tunisia have adopted a new Constitution, one 
that makes place for religious and ethnic minorities and women 
to be equal and to help build the new Tunisia. For the first 
time ever, the Tunisian people democratically elected a new 
legislature and a President. Now, the Tunisian Government is 
moving to consolidate its gains and build on its democratic 
institutions, ensure the respect for human rights and the rule 
of law, and implement additional democratic reforms. Of course, 
there are still so many hurdles to overcome, but it is our hope 
that with the continued assistance of the United States, we can 
assure that Tunisia remains on course and becomes the region's 
first full-fledged democracy and a shining example for the rest 
of the region to emulate.
    That is why I am pleased to support this resolution 
honoring the people of Tunisia for their continued success on 
their democratic transition. And I urge all of my colleagues to 
do the same, and send a message to the people of Tunisia that 
we appreciate and support their efforts. I would also urge my 
colleagues to support a resolution I have introduced alongside 
my good friend and ranking member, Mr. Ted Deutch of Florida, 
expressing concern over the anti-Israel and anti-Semitic 
sentiment within the Palestinian Authority with all that is 
going on now with the clashes in Jerusalem at the Temple Mount 
between Palestinians throwing rocks at Jews and Israeli 
security forces while tensions are, as we know, on the rise.
    And one of the major reasons why these tensions are on the 
rise is because rather than being a responsible partner for 
stability and peace, Abu Mazen and the Palestinian Authority 
have stoked the anger with government-sponsored incitement. For 
years, the Palestinian Authority has served to exacerbate the 
problem through indoctrination in schools, including anti-
Semitic language in textbooks and lesson plans, or by paying 
salaries to the families of terrorists and naming public 
schools and public squares after these terrorists.
    We always hear that actions speak louder than words, but 
the actions and the words from the PA and Abu Mazen both 
indicate that there is no interest in the current government 
for peace with Israel. We must do more to hold the PA 
accountable for its anti-Israel incitement. We must do more to 
encourage the PA to discontinue its incitement to violence 
against Israel. And we must work to do more to support and 
encourage those individuals and organizations working to 
promote cooperation between Israelis and Palestinians. There 
will never be peace until and unless there is some trust and 
respect. But it can't happen until the Palestinian leadership 
no longer moves to incite hatred and violence against Israel.
    And now I am pleased to yield to the ranking member, Mr. 
Deutch, for his remarks.
    Mr.  Deutch. Thank you, Madam Chairman. I will be brief in 
my comments as I have got to run back and forth to another 
committee hearing. I want to thank the chairman for working 
together to ensure bipartisan support for these two 
resolutions. Chairman Ros-Lehtinen and I introduced House 
Resolution 293 to highlight the ongoing incitement by officials 
within the Palestinian Authority in official textbooks and on 
state television. President Abbas came to power on a platform 
of nonviolence. He speaks of his desire for peace. But using 
inflammatory language and failing to speak out against anti-
Semitism and incitement simply gives the appearance of 
condoning it. Violence cannot be condoned. And those truly 
seeking peace must speak out. Indeed, when there is violence 
against innocent Palestinians we must speak out. And I am 
pleased to see Prime Minister Netanyahu doing so.
    We know that peace will only come from an agreement between 
the Israelis and the Palestinians themselves. But conditions on 
the ground will dictate whether the Palestinian people are 
prepared for what a Palestinian State living side by side with 
the Jewish State of Israel ultimately looks like. Textbooks and 
maps must show Israel's existence. Town squares should never be 
named after suicide bombers or attackers that glorify terrorism 
against innocent civilians. This resolution also applauds those 
Israeli and Palestinian organizations that are working together 
to promote peace between the two peoples, whether it is through 
the provision of medical services, or peer-to-peer interaction, 
or a Palestinian professor who dares to teach his students of 
the horrors of the Holocaust. I hope my colleagues will join us 
in supporting this resolution.
    Second, I urge members to support House Resolution 277, 
which recognizes the democratic transition in Tunisia and the 
importance of the U.S.-Tunisia relationship. It was the self-
immolation of a Tunisian fruit vendor that gave way to the Arab 
Spring. And since 2011, Tunisia has fought to ensure its 
transition to democracy would be peaceful. And thus far, it has 
been a model for other nations still struggling for democratic 
ideals.
    Tunisia has successfully completed its first free 
Presidential elections and transition to a new government. The 
new Constitution includes unprecedented rights for women and 
minorities and respect for rule of law. Yet Tunisia faces a 
precarious security threat. Tunisians have gone to train with 
ISIS in staggering numbers. Its border with Libya is difficult 
to control. And Libya's lawlessness has made it a magnet for 
terror training and transit.
    In a span of mere months, Tunisia suffered a horrific 
terror attack at the Bardo Museum and another at the popular 
tourist destination of Sousse. The United States is committed 
to assisting Tunisia with stabilizing its security, its 
economy, and its democracy. This resolution is a reminder of 
the importance of a successful and thriving Tunisia. I urge my 
colleagues to support it.
    Ms.  Ros-Lehtinen. Thank you so very much, Mr. Deutch. I 
would like to recognize other members for any opening 
statements they would like to make. Mr. Chabot of Ohio is 
recognized.
    Mr.  Chabot. Thank you very much, Madam Chair. I want to 
commend you for bringing this legislation before the 
subcommittee today. As we know, Israel is one of the United 
States' closest allies. And over the years, it has withstood 
anti-Semitic rhetoric from far too many of its neighbors, often 
propagated by state institutions and government officials from 
neighboring states. And unfortunately, one of the offenders is 
right next door, the Palestinian Authority. A monthly 
educational magazine for children, one that is sponsored by the 
Palestinian National Committee for Education, depicts Hitler as 
a role model. This does nothing for the promotion of peace in 
the region. To the contrary, it encourages hate and violence, 
when acceptance of differences and loving your neighbors should 
be the key principles of a young person's education.
    And this perpetuated hatred by the Palestinian Authority 
and their allies has a direct impact within Israel's own 
borders. Just this week, a Jewish man was killed by Palestinian 
stone throwers after the Secretary General of the Palestinian 
Liberation Organization accused Israel of turning Jerusalem 
into an exclusively Jewish city. Tell me how is this rhetoric 
productive in finding a middle ground?
    Israel and the Palestinian Authority will never be able to 
negotiate peace if one party is constantly under attack by one 
that institutionally encourages anti-Israeli and anti-Semitic 
beliefs. If we ever hope to see cooperation in the region, we 
will have to see a change in attitudes first. This measure 
recognizes those realities and reasserts our support for an 
Israel that is treated with the dignity and respect that it 
deserves. It is a timely measure. I urge my colleagues to 
support H. Res. 293. And I yield back, Madam Chair.
    Ms.  Ros-Lehtinen. Thank you very much, Mr. Chabot. Mr. 
Cicilline.
    Mr.  Cicilline. Thank you, Chairwoman Ros-Lehtinen and 
Ranking Member Deutch, for bringing up these two bills for 
markup today. I am proud to be a cosponsor of both. I would 
like to just say a few words about House Res. 293, which 
condemns anti-Semitic sentiment within the Palestinian 
Authority. Both the Palestinian Authority and the Israeli 
Government have agreed on numerous accords to refrain ``from 
incitement, including hostile propaganda.'' But it is 
incredibly concerning that the PA has not eradicated such anti-
Semitic and anti-Israel language from their public statements, 
official materials, and their educational system.
    As the Middle East faces incredible turmoil and chaos, the 
perpetuation of anti-Semitism by the Palestinian Authority is 
more dangerous than ever. Both the Palestinian Authority and 
Israel are threatened by the current regional destabilization, 
and fueling the fire with anti-Semitism is outrageous and 
extremely risky for Jews, for Israel, and ultimately for the 
entire region.
    This all happening in the context of dangerously increasing 
anti-Semitism throughout Europe. To be sure, there are 
organizations with individuals on both sides working to foster 
cooperation, mutual understanding, and cultural exchanges 
between Israelis and Palestinians. And there are Palestinians 
who reject the hateful and racist language being used by the 
Palestinian Authority and its supporters. I hope that the 
United States will continue to support those that are working 
to bring peace and understanding to the region, and will 
continue to condemn the Palestinian Authority's actions and 
statements meant to incite hatred against Jews and against the 
State of Israel. And I thank you, Madam Chair, and yield back.
    Ms.  Ros-Lehtinen. Thank you, Mr. Cicilline. Seeing no 
other requests for time, are there any amendments? The Chair 
moves to report the en bloc items favorably to the full 
committee. All those in favor say aye. All opposed, no. In the 
opinion of the Chair, the ayes have it. The motion is approved, 
and the measures, as amended, are reported favorably to the 
full committee. With thanks to my colleagues for their input 
and cooperation, that concludes today's markup, and the 
subcommittee stands adjourned.
    [Whereupon, at 2:07 p.m., the subcommittee was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
